IN THE
SUPREME COURT-OF THE UNITED STATES

Supreme Court", U.S.
FILED

Keith A. Brown

— PETITIONER

AUG 2 5 2020

(Your Name)

OFFICE OF THE P Ffflf
VS.

Alberto Ramirez

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States District Court,

(Idaho), 1:17-CV-00093-CWD

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Keith A. Brown
(Your Name)

Post

nffiop Boy 70010

(Address)
Boise. Idaho
83707
(City, State, Zip Code)

RECEIVED
SEP - 2 2020

(Phone Number)

QUESTION(S) PRESENTED
1 ).

During a hearingr.ori: a Motion to Suppress Evidence, when
the State fails to carry it's burden of proof, is the
remedy suppression of the evidence?/ Or, can the State
simply be allowed to have another hearing and a second
bite of the apple, i.e • / try to carry the burden of proof
that it failed to carry the first time?

2).

If the State is allowed to have a second chance to carry
it's burden of proof, as to the admissibility of evidence,
then the Fourth Amendments protections are meaningless,
because the state would ALWAYS simply win in a suppression
hearing because they would have many, many chances to
cure any defects.

3).

When, on Appeal of a Motion to Suppress evidence, the
Court finds the State did not carry it's burden of proof,
is not the remedy Suppression of the evidence?

4).

Has the State of Idaho failed to follow the Fourth Amendment
to the United states Constitution?

5).

When a State commits a criminal Defendant as incompetent,
can statements made by that person be used against him
in that proceeding? (Court ordered the Defendant as not
competent to understand the proceedings, and unable to
assist in his defense, yet used his statements against
that was made when he was deemed to be incompetent).

6). Did the United States District Court err when it refused
to grant a Certificate of Appealability?
7). Did the Ninth Circuit Court of Appeals err when it refused
to grant a Certificate of Appealability?
8). When a Criminal Defendant provides evidence of self defense,
is he entitled to a hearing in which the State must prove he
did not act in self defense? (Burden Shifting if not granted
such a hearing).
9).

Are the statements of an incompetent person, (One who has
been committed to a mental institution), admissible in a
criminal proceeding?

A

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

B

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Please read the supporting memorandum enclosed herein.

STATUTES AND RULES
Please read the supporting memorandum enclosed herein.

OTHER

C

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

.4.

REASONS FOR GRANTING THE WRIT

5

CONCLUSION

6

INDEX TO APPENDICES
APPENDIX A

Opinion of the United States
District Coartv

APPENDIX B

Order of the Ninth Circuiit Court
Of Appeals.

APPENDIX C

Order denying Petition for Review

APPENDIX D

APPENDIX E

APPENDIX F

D

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix _E.
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
M is unpublished.
The opinion of the United States district court appears at Appendix A
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
[x] For cases from state courts:
The opinion of the highest state court to review" the merits appears at
Appendix_____ to the petition and is
kH reported at st-at-g. vr rtmwn, m p.vi 751 r (20131
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was .Tunc* 17th r 2020
[ ] No petition for rehearing was timely filed in my case.
[x] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: August 6th, 2020
, and a copy of the
order denying rehearing appears at Appendix _C
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including________________ _ (date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fourth Amendment to the United States Constitution,
The Fifth Amendment'to the United States Constitution,
The Sixth Amendment to the United States Constitution.
The Fourteenth Amendment to the United States Constitution.

The right to a fair and impartial trial would be implicated
if this Court does not issue a Writ of Certiorari, or issue the
Writ of Habeas Corpus sought.
The right to self defense would become non-existent

in the

United states of America if this Court does not act in this case.
The rights established by the Fourth Amendment, prohibiting
illegal searches and seizures,would be "non-existent" if this
Court does not issue the Writ of Certiorari.

3

STATEMENT OF THE CASE
The Petitioner seeks a Certificate of Appealability or a
Writ of Certiorari from this Court.
The Petitioner contends that if this Court does not issue a
Writ of Certiorari addressing the denial of a Certificate of
Appealability, that it would allow the Fourth Amendment to the
United States Constitution to be seriously eeroded, leaving no
protection for the citizens of these United States.
In this case the Petitioner prevailed in his Motion to
suppress evidence, yet the Court did not order the evidence to
be suppressed. Instead the Court ordered that the State of Idaho
would be allowed to have another chance to prove that the evidence
should be admissible in the CSurt.
This action of allowing the State of Idaho to have a "second
bite at the apple'1, has denied to the Petitioner Due Process of
Law, and has relieved the State of it's burden of proof.
The United States District Court, in Appendix A, states that
there is no authority that prevents the State from having the second
chance to prove admissibility.

The Petitioner argued that there

was clear case precedent that provides that when the State fails
to carry it's burden of proof as to admissibility of evidence, that
the remedy is to suppress the evidence.
It this Court allows the Order of the United States District
to stand, and if this Court allows the United States Court of
Appeals order co stand, then there would never be any need to
order suppression of evidence, because the State's would be allowed
to have a second chance to carry it's burden of proof.
4

REASONS FOR GRANTING THE PETITION
This Court should grant to the Petitioner the sought after
Writ of Certiorari. If this Court does not do so, then it would
mean that there is no right to self defense in the United States.
In this case, the Petitioner clearly showed evidence of self
defense, but the Court did not order a hearing on the matter, even
though the State of Idaho agreed that there was evidence of self
defense. This act relieved the State of Idaho of it's burden of
proof, and made the Petitioner not have any type of defense.
Also, and just as important, the Petitioner prevailed in the
State Supreme Court on his Motion to Suppress evidence. However,
instead of ordering the evidence to be suppressed, the State
Supreme Court allowed the State to go back and re-due the suppression
hearing, effectively giving the State, "two bites at the apple".
If this Court allows this to stand, then there would be no
need of the Fourth Amendment to the United States Constitution as
the government would ALWAYS be able to prevail, being given many
many "bites at the apple".
The United States District Court erred when it did not grant
to the Petitioner a Certificate of Appealability. The Petitioner
clearly and conclusively met the stand of proof to have been granted
a Certificate of Appealability, and it is very clear it was error
not to order or to grant to the Petitioner such a Certificate.
It is based upon the order of the United States District
Court that this Court should find this case worthy of accepting
and order briefing on the issues in this case.

5

If this Court does not grant the Writ of Certiorari, then
statemehfes of persons committed to an institution as mentally ill,
to be used to convict them in criminal trials-; even if it is the
State who is'responsible for such committment. In short, the State
would be allowed to let an incarcerated person, "slip mentally*',
have that person committed to a mental institution, and then use
statements made by that person while incompetent, to convict them
of a criminal offense.

CONCLUSION
This case presents several questions of serious Constitutional
importance. Counsel should be appointed, and this Court should rule.

The petition for a writ of certiorari should be granted.

Respectfully submitted,

6

